HHS/OIG-Audit--"Audit of Cash and Medical Assistance Under the Refugee Resettlement Program in the State of Florida, (A-04-91-00010)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Cash and Medical Assistance Under the Refugee Resettlement Program in the State of Florida," (A-04-91-00010)
May 15, 1992
Complete
Text of Report is available in PDF format (2.98 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Florida Department of Health and Rehabilitative Services (HRS) made cash and
medical assistance payments to refugees who were not eligible for assistance and in a few instances assistance was erroneously
provided to nonrefugees. This occurred primarily because the HRS did not have edits in its computerized payment system
to identify refugees whose eligibility period had expired. We recommended procedural changes to improve HRS' administration
of the refugee resettlement program. We also recommended a financial adjustment of $1,112,350 for the ineligible cash and
medical assistance payments.